<html>
<title> - PROGRAMS FOR THE HIGH PLAINS AQUIFER; AND A HYDROELECTRIC PROJECT IN ILLINOIS</title>
<body><pre>[Senate Hearing 108-15]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-15

 PROGRAMS FOR THE HIGH PLAINS AQUIFER; AND A HYDROELECTRIC PROJECT IN 
                                ILLINOIS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                                 S. 212

 TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO COOPERATE WITH THE HIGH 
PLAINS STATES IN CONDUCTING A HYDROGEOLOGIC CHARACTERIZATION, MAPPING, 
 MODELING AND MONITORING PROGRAM FOR THE HIGH PLAINS AQUIFER, AND FOR 
                             OTHER PURPOSES

                                 S. 220

 TO REINSTATE AND EXTEND THE DEADLINE FOR COMMENCEMENT OF CONSTRUCTION 
          OF A HYDROELECTRIC PROJECT IN THE STATE OF ILLINOIS

                                H.R. 397

 TO REINSTATE AND EXTEND THE DEADLINE FOR COMMENCEMENT OF CONSTRUCTION 
          OF A HYDROELECTRIC PROJECT IN THE STATE OF ILLINOIS

                               __________

                             MARCH 6, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

86-855              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                    LISA MURKOWSKI, Alaska, Chairman
            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            TIM JOHNSON, South Dakota
JIM BUNNING, Kentucky                DIANNE FEINSTEIN, California
CRAIG THOMAS, Wyoming                CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                         Shelly Randel, Counsel
                        Kellie Donnelly, Counsel
                Patty Beneke, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alley, William M., Chief, Office of Ground Water, U.S. Geological 
  Survey, Department of the Interior.............................     7
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................    11
Brownback, Hon. Sam, U.S. Senator from Kansas....................     5
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     2
Fitzgerald, Hon. Peter G., U.S. Senator from Illinois............     3
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............     4
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     1
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    13

                                APPENDIX

Additional material submitted for the record.....................    19

 
 PROGRAMS FOR THE HIGH PLAINS AQUIFER; AND A HYDROELECTRIC PROJECT IN 
                                ILLINOIS

                              ----------                              


                        THURSDAY, MARCH 6, 2003

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. We will now call to order the first 
subcommittee meeting of the Water and Power Subcommittee. It is 
a pleasure to be here today. We have this afternoon S. 212.
    And just for the record, we will have statements from 
Senators Bingaman, Hutchison, Campbell, Allard, and from Dr. 
Peter Scholle, and Dr. M. Lee Allison, the American Farm 
Bureau, the Texas Water Resources Institute, from the Colorado 
Farm Bureau, and the Western States Water Council. Those 
statements will all be included in the record. And as it 
relates to S. 220, House Resolution 397, we have a statement 
from Senator Fitzgerald. And this statement will also be 
included in the record.
    I would remind members that I expect both of the items 
before the committee today will be on the markup agenda for the 
business meeting, which is set for next Wednesday.
    We will keep the record open for 2 weeks to allow members 
and other interested parties to submit statements and 
additional testimony.
    Let us see here. At this time, I would like to welcome to 
the committee, we do have Senator Brownback who is with us this 
afternoon.
    I understand, Senator, that you have a few brief comments 
that you would like to provide on S. 212, the High Plains 
aquifer legislation. If you would like to, present those 
comments to the committee at this time.
    [The prepared statements of Senators Murkowski, Campbell, 
Fitzgerald, Hutchison and a letter from Senator Allard follow:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    It is indeed a pleasure to be holding the first Water and Power 
Subcommittee hearing of the 108th Congress. At a time when the country 
is facing its worst drought in decades and water is in increasingly 
short supply, I believe this subcommittee will find itself working 
through a vast number of these difficult challenges.
    I would like to take the opportunity to welcome Senator Brownback, 
who will be offering a few brief comments on this bill in just a few 
moments.
    I would also like to welcome our Administration witness, Mr. 
William M. Alley, the Chief of the U.S. Geological Survey's Office of 
Ground Water, who will be testifying on S. 212, the High Plains Aquifer 
Hydrogeologic Characterization, Mapping, Modeling, and Monitoring Act.
    This bill was introduced by Senator Bingaman in the 107th Congress 
and passed the Senate last year. I understand that some members and the 
Administration had some concerns with the bill last year. I believe 
that changes were made to the bill to address some of these concerns. 
However, as a new member I wanted to have the opportunity to listen to 
testimony and to gain a better understanding about what this bill does 
since I was not here last year to participate in the process.
    Since this bill was passed by the Senate last year, it was my 
intent to hold a hearing expeditiously. In an effort to accomplish 
this, we will only be hearing from Senators and the Administration 
today. However, I understand that other parties with an interest in S. 
212 will be submitting testimony for the record.
    While Alaska is not one of the eight states that relies on the High 
Plains Aquifer, I understand that it is a vital resource for those 
states that do! Being the largest single water-bearing unit in North 
America, covering approximately 225,000 square miles in the Great 
Plains region, particularly in the High Plains of Texas, New Mexico, 
Oklahoma, Kansas, Colorado, and Nebraska, I can appreciate the need to 
more fully understand what has long been a major source of water for 
agricultural, municipal, and industrial development.
    Due to the nature of western water resources in general, I can also 
appreciate concerns about the level of federal involvement in what has 
historically been state regulation of those resources. Therefore, I 
hope that I can come away with a better understanding of this 
particular bill and how exactly it will work to ensure that we use good 
science to save not only the resource, but also the economies in those 
counties who have relied on these resources since the turn of the 
century.
    This hearing will also examine S. 220, sponsored by Senator 
Fitzgerald, and its companion legislation, H.R. 397. These bills would 
reinstate a Federal Energy Regulatory Commission license of a four-
megawatt hydroelectric project in the State of Illinois and extend the 
deadline for the commencement of construction. Both S. 220 and H.R. 397 
would allow the City of Carlyle, Illinois to construct the 
hydroelectric power facility on an existing U.S. Army Corps of 
Engineers' dam on the Kaskaskia River. In addition to benefitting the 
City, this project will provide a renewable energy source for 
surrounding communities.
    During the last Congress, Senator Fitzgerald's legislation on this 
issue was reported by the Energy and Natural Resources Committee and 
passed by the Senate. However, the House was not able to consider the 
measure prior to adjournment and the legislation was not enacted. The 
Administration, which has submitted testimony on both S. 220 and H.R. 
397, does not oppose the legislation.
                                 ______
                                 
          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado

    Madame Chairwoman, thank you for holding this hearing on these 
important bills. My statement only relates to one--S. 212, a bill to 
study and monitor the High Plains Aquifer (Ogallala).
    I am concerned that S. 212 provides a window for federal 
involvement in managing the most scarce and important resource in the 
West--water.
    The Federal Government has repeatedly recognized that states best 
manage water, and many states have developed successful water 
management systems. One of the finest is in my state of Colorado. 
Colorado water law has worked well in practice with the respective 
federal agencies and Colorado has developed the foremost instream flow 
program in the nation.
    I believe that the sponsors of the bill are well-intentioned, as 
they recognize many states would like to better monitor their water, 
but deficits and funding constraints preclude additional spending.
    Yet, this bill seems unnecessarily complicated to do something that 
is relatively simple, if assistance is all that is in mind.
    Too often we have seen federal assistance turn into federal data 
gathering turn into federal suggestions turn into federal guidelines 
turn into federal regulation with delegation to the States only when 
the States do what the federal government wants.
    My respectful suggestion would be to have the Secretary provide 
assistance to States at the request of the States. Since there are 
limited funds, we should consider language stating that the Secretary 
give deference to any priority list that has been approved by all eight 
Governors. The Governors are in the best position to determine what 
should be done within their respective states and also to determine 
whether the activity is best carried out under the direction of the 
State geologist or the State engineer or a university.
    I also think we need to appreciate the role of tribal governments 
and their needs. We have made it very difficult for some of my 
constituents to have access to surface waters for irrigation. Ridges 
Reservoir is now designed to only provide M&I instead of the irrigation 
supplies contemplated for the Animas-LaPlata project under the Colorado 
Ute Settlement Act.
    However well intentioned, I think we would be better off recasting 
this bill so that the assistance is directed to Governors based on 
requests from the Governors and letting the Governors work with local 
communities and tribal governments to form their priority lists.
    As currently drafted, I know that my state's administration has 
serious concerns with this bill, and I have a letter from the Colorado 
Farm Bureau expressing their strong opposition to S. 212. I ask 
unanimous consent that a copy be placed in the Record.
    Coming from a state that recently experienced its worst drought on 
record, I recognize the great demands being placed on our water 
resources. Efficient management of water is necessary for the West to 
be able to meet its projected future growth.
    We are all familiar with Mark Twain's saying: ``whiskey's for 
drinking and water's for fighting over''--unfortunately, his saying has 
proved accurate over the years. I look forward to working with my 
friend, Senator Bingaman, to have a bill that we can all be comfortable 
with, and in so doing, prove that Mark Twain isn't always right.
    Thank you.
                                 ______
                                 
     Prepared Statement of Hon. Peter G. Fitzgerald, U.S. Senator 
                             From Illinois

    Madam Chairman, I would like to thank you for holding this hearing 
to address legislation that is of great importance to my state. I would 
also thank you for affording me the opportunity to voice my support for 
this bill. The legislation that I have introduced seeks to reinstate a 
license, surrendered to the Federal Energy Regulatory Commission 
(``FERC''), which authorized the construction of a hydroelectric power 
plant in Carlyle, Illinois. In order to facilitate the construction of 
the hydroelectric power plant, the bill also contains a provision that 
extends the deadline for beginning construction of the plant.
    Carlyle, Illinois, is a small community of 3,406 people in 
Southwestern Illinois, fifty miles east of St. Louis. Carlyle is 
situated on the Kaskaskia River at the southern tip of Carlyle Lake, 
which was formed in 1967 when the U.S. Army Corps of Engineers 
completed construction of a dam on the river. Carlyle Lake is 15 miles 
long and 3\1/2\ miles wide--the largest man-made lake in Illinois.
    When the Army Corps of Engineers constructed the dam, it failed to 
build a hydroelectric power plant to capitalize on the energy available 
from water flowing through the dam. A hydroelectric power facility in 
Carlyle would produce 4,000 kilowatts of power and provide a renewable 
energy source for surrounding communities. Furthermore, the 
environmental impact of adding a hydroelectric facility would be 
minimal, and such a facility, located at a site near the existing dam, 
would not produce harmful emissions.
    In 1997, Southwestern Electric Cooperative obtained a license from 
the FERC to begin work on a hydroelectric project in Carlyle. In 2000, 
Southwestern Electric Cooperative surrendered their license because 
they were unable to begin the project in the required time period. The 
City of Carlyle is interested in constructing the hydroelectric power 
plant and is seeking to obtain Southwestern Electric Cooperative's 
license.
    The bill I am introducing is required for the construction of the 
facility. Legislation is necessary to authorize FERC to reinstate 
Southwestern Electric Cooperative's surrendered license. Because there 
is not enough time remaining on the license to conduct studies, produce 
a design for the facility, and begin construction of the project, the 
bill includes a provision that allows FERC to extend the applicable 
deadline.
    The full Senate passed this bill, during the 107th Congress, 
without opposition, but, the House of Representatives was unable to act 
on this legislation before the 107th Congress adjourned. During this 
Congress, the House of Representatives has already passed legislation 
identical to what the Senate passed in the 107th Congress and what I 
reintroduced in the Senate earlier this year.
    This legislation is an easy and environmentally safe approach to 
meeting the energy needs of Southwestern Illinois. I hope that the 
Senate Committee on Energy and Natural Resources will report this 
legislation to the full Senate. I look forward to working with my 
colleagues in the Senate to pass this legislation that would provide a 
clean alternative energy source for this part of the Midwest.
                                 ______
                                 
     Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator 
                               From Texas

    Madam Chairman, thank you for the opportunity to inform the 
committee of the vital economic impact the Ogallalla aquifer has on 
Texas' High Plains region and our entire state. Thirty-five percent of 
Texas' agribusiness is generated in the forty one counties that overlay 
the Ogallalla aquifer from Lubbock to Amarillo, and this area's 
agriculture is responsible for $30 billion worth of one of Texas' most 
critical industries. Approximately 30 percent of income in the 
Panhandle is dependent upon its regional agricultural industry, which 
is a dominant economic engine for its communities and citizens. 
Furthermore, Texas produces 25 percent of the cotton grown in America 
and fifty percent of that is grown in our Panhandle. This area is also 
responsible for strong corn, wheat, grain sorghum, livestock, and milk 
production--all of which depend on water.
    Texans know the aquifer is a precious and limited resource. In the 
1950's the Texas State Legislature established local ground water 
conservation districts to ensure the area's residents can monitor and 
conserve their water for generations to come. I support these 
district's conservation efforts including observation wells, hydrologic 
and geologic atlases and mapping, and the promotion of improved 
irrigation technologies. Last year, Senator Roberts and I secured 
$750,000 for the Agricultural Research Service to work through West 
Texas A&M University, Texas Tech University, and Kansas State 
University to provide research to farmers about the benefits of 
subsurface drip irrigation systems over traditional sprinkler systems. 
This innovative technology is helping farmers in all eight states that 
benefit from the Ogallalla aquifer to conserve our precious water and 
improve our irrigation efficiency to 95 percent.
    S. 212, as proposed, does not address several issues I am concerned 
with: the economic impacts of the Ogallalla aquifer to all our states 
and the significant investments our local water conservation districts, 
our states, our research institutions, and the United States Department 
of Agriculture's Agricultural Research Service and Natural Resources 
Conservation Service are already leading. Finally, Congress should not 
authorize the federal government to establish a program that will 
regulate the management of our states' groundwater. Any funding that 
Congress or the Department of the Interior chooses to provide the 
Ogallalla aquifer's local water users should be invested in continuing 
water conservation efforts, so we may all continue to enjoy the 
benefits of our shared natural resource for generations to come.
    I thank the committee for the opportunity to comment on my concern 
with S. 212.
                                 ______
                                 
                                      United States Senate,
                                     Washington, DC, March 5, 2003.
Hon. Lisa Murkowski,
Subcommittee on Water and Power, Washington, DC.

Re: Senate Bill 212

    Dear Chairman Murkowski: Throughout my tenure in Congress, I have 
vigorously guarded against federal intrusion into state water issues. I 
firmly believe that the federal government's interest in water must be 
consistent with local interests, and that the government must cooperate 
with the states on environmental issues, as well as defer to the states 
on matters of state law. Such cooperation and deference extends to 
state law governing groundwater.
    The federal government plays an important role in the development 
and implementation of national environmental policy. However, Congress 
must not create programs that pose a threat to state authority over 
water and which could send state groundwater law down a path similar to 
the federal handling of surface water. While I believe the intent of 
Senate Bill 212 is not to usurp state water law, I would like to point 
out that the responsibility to perform such a course of study rests in 
the hands of the state water authority.
    I strongly urge the Committee to work with the sponsors of the 
legislation to develop a state focused, state centered, law; one that 
does not threaten state autonomy over groundwater. By allowing the 
states to direct the program, the federal government will accomplish 
its objectives in a way respective of state law while still serving the 
federal environmental interest.
    Thank you for allowing me the opportunity to discuss these thoughts 
with the Committee. I look forward to working with the Committee and 
bill sponsor on this legislation.
            Sincerely,
                                              Wayne Allard,
                                             United States Senator.

         STATEMENT OF HON. SAM BROWNBACK, U.S. SENATOR 
                          FROM KANSAS

    Senator Brownback. Thank you very much, Madam Chairman. I 
appreciate that opportunity to present these thoughts. What I 
thought I would do is just submit my full statement in the 
record, if that would be acceptable, and then just briefly 
summarize off of it.
    Senator Bingaman and I last year, last 2 years, have been 
working on the issue of the High Plans aquifer, the Ogallala 
aquifer, and its depletion and the problems associated with it. 
This is an issue of long interest for me. Before I was in the 
Senate, I was in the House. Before I was in the House, I was 
the Secretary of Agriculture for the State of Kansas, and in 
that capacity worked on the issue of the Ogallala aquifer. The 
regulation of that was in our agency in the State.
    Before that, I was a farm broadcaster. I was a lawyer and a 
farm broadcaster. And while a farm broadcaster, I covered the 
issue of the depletion of the Ogallala aquifer. As a lawyer, I 
learned and taught and practiced some water law and learned 
quickly the basics of Western water law, which the very basic 
fundamental of it was ``first in time, first in right.'' And 
the operational effects were: Whiskey is for drinking; water is 
for fighting. And there is a lot of fighting that goes around 
on the issue of water.
    What we are trying to do here should be a completely 
noncontroversial issue, something we did 20 years ago, which 
was to map the Ogallala aquifer to see how much water is still 
there. We did that 20 years ago to try to estimate what is the 
nature of the Ogallala. We have not had a comprehensive mapping 
of it since. This will help State policy makers to make 
appropriate decisions regarding water policy, State and local 
units of government.
    This is not the Federal Government taking over water 
rights, water issues affecting any of our States. If it were, I 
would be adamantly opposed to it. Water is a State-level issue, 
as far as the rights and responsibilities of water. And we do 
not want to federalize water law issues. Those must remain at a 
State level.
    What this is to provide is resource information as to the 
nature of the Ogallala aquifer within the eight States that are 
covered. A portion of it is in each of these eight States. And 
this is going to be good policy information that States are 
asking for, as they monitor and work with it.
    I would also note that we used to think that the Ogallala 
aquifer did not move very much underneath the ground. And as we 
have had more of a pull-down on depletion of this aquifer, we 
are finding that there is much more movement underground of it 
than we thought in the past. And we need this type of 
information as well to be able to make policies at a State and 
local level to try to preserve this aquifer for our future 
generations.
    In a number of areas across the country already, people 
have stopped irrigating out of the Ogallala aquifer. And it has 
not been because they want to stop doing this, but because of 
depletion of the aquifer in that particular area. If we do not 
start providing this kind of information for policy makers to 
review where we are with the aquifer, particularly since the 
past 20 years, what are the possibilities into the future, and 
I am afraid we are not going to have good policy making, and we 
are not going to be able to have an extended life of this 
aquifer that is critical to the future of my State and the 
eight States that it serves.
    So with that, I submit my statement. I am very pleased you 
are bringing this up, delighted to hear it is going to be on 
the markup soon, in the next committee markup that there will 
be. And this is valuably sought-after information by State and 
local policy makers. So we are going to have wise policy.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas

    Madam Chairwoman, I would like to thank you for giving me the 
opportunity to speak before your Committee today about S. 212, the High 
Plains Aquifer Hydrogeologic [``hydro-geo-logic''] Characterization, 
Mapping, Modeling and Monitoring Act. As you may know, this bill was 
actually passed by the Senate last year, but unfortunately did not see 
action on the House side. I am pleased that this bill is moving forward 
again here in the Senate and hope that we can rapidly move this bill 
through passage again. I continue to encourage our Colleagues on the 
House side to take up this issue as well.
    My involvement with saving North America's largest aquifer is a 
lifelong one. In my early days of public service as the Kansas 
Secretary of Agriculture my conviction to sustaining the way of life 
dependent on the Ogallala resulted in the Kansas Agriculture Ogallala 
Task Force. Given the charge to explore all possible options for long-
term conservation, the Ogallala Task Force brought forth many of the 
same ideas that we are fortunate to now be seeing action taken on 
through the combined effort of local and state governments, as well as, 
Congress.
    S. 212 is another in a series of steps that I have been involved 
with in the preservation of the Ogallala Aquifer. This bill would 
authorize the Secretary of the Interior to cooperate with the High 
Plains Aquifer States in conducting a hydrogeologic characterization, 
mapping, modeling and monitoring program for the High Plains Aquifer. 
This kind of scientific data has not been collected comprehensively 
across the Aquifer in over 20 years. This type of data is important so 
that we can accurately aim our efforts at preserving the Ogallala.
    The data collected from the components in this bill will provide us 
with accurate information relating to groundwater depletion and 
resource assessment of the Aquifer. I am pleased with this bill because 
it relies on cooperative efforts between state, local, and federal 
entities. The Association of American State Geologists, the Western 
States Water Council, and the U.S. Geological Survey were all 
instrumental in the drafting of this bill. I am committed to the fact 
that while the federal government is involved with the preservation 
efforts, it is the states that retain the ultimate control of the 
Aquifer.
    This bill calls for a report on the status of the implementation of 
the mapping program to be given not only to your Committee, but also to 
each Governor of the High Plains Aquifer States. It is imperative that 
the states remain in open dialogue with each other and with the federal 
entities involved in the collection of this data. This bill is aimed at 
collecting the much needed accurate data about the Aquifer, not at 
forcing the Federal government into regulating use of the water. I am 
confident that this bill does not infringe on the rights of the states 
and is truly aimed at collecting accurate data about the Aquifer.
    There is no other aquifer in the United States pumped as intensely 
as the High Plains Aquifer. The technology that has allowed many 
farmers to producer higher yields with different crops through 
irrigation, is unfortunately the same technology that has led to the 
depletion of the Aquifer. For years many people thought the Aquifer was 
bottomless. Today we are being faced with the reality that the Aquifer 
supply is limited. There are some estimates that state that parts of 
the aquifer could be completely dry in less than 25 years. We cannot 
ignore this problem any longer. With an accurate assessment of the 
Aquifer levels we will be able to more efficiently focus our efforts at 
preserving the resources of the Ogallala.
    Of the eight states affected by the lowering levels of the Ogallala 
Aquifer, Kansas has taken a significant leadership role in saving its 
usable life. Without the combined efforts coming out of Kansas, the 
Western States Water Council would be far from where they are today. 
Thanks to the Kansas Water Office, the Kansas Geological Survey, and 
the Mayo Commission, and the Western States Water Council we are taking 
significant steps toward a unified conservation plan that will serve 
all eight Ogallala states.
    I would like to thank my Colleague Senator Bingaman, who has been 
absolutely instrumental in getting these measures through the Senate. I 
encourage all of the members of this Committee to look closely at what 
this bill will do and support passage of this bill through the Senate. 
Having the support of members of this Committee will be truly 
beneficial in getting this bill passed. I would especially hope that 
the members of this Committee from the High Plains states would join 
Senator Bingman, Senator Domenici, and myself in sponsoring this bill.
    I commend you for holding this hearing today. It is my hope that my 
Colleagues, not only from the eight High Plains States, but also 
throughout the Senate will see how important this legislation is at 
preserving the usable life of the Ogallala Aquifer. We were successful 
in getting this bill passed last year, and I would think this is 
something we could rapidly achieve again during these early days of the 
108th Session of Congress.
    Again, thank you for holding the hearing. And thank you for 
allowing me to come before your Committee today to speak about this 
bill. I look forward to working with you in the near future in bringing 
this bill to the Senate floor for passage.

    Senator Murkowski. Thank you, Senator. Appreciate you 
taking the time to come before the subcommittee this afternoon.
    Let us see. We do have also with us this afternoon our 
administration witness. This is Mr. William M. Alley, the Chief 
of the U.S. Geological Survey's Office of Groundwater. He will 
also be testifying on S. 212.
    And just as--if you want to come and join us at the table.
    As I understand, this legislation was introduced last year, 
Senator Bingaman, by yourself and passed the Senate, but that--
there were some concerns at that time. And I do understand that 
the concerns have been addressed, and changes have been made to 
the legislation accordingly.
    It was my desire to have this hearing this afternoon to 
just understand a little bit better what we have before us. So 
I appreciate, Mr. Alley, you coming this afternoon and would 
welcome your testimony.

 STATEMENT OF WILLIAM M. ALLEY, CHIEF, OFFICE OF GROUND WATER, 
       U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Alley. Thank you for the opportunity to provide the 
views of the Department of the Interior on S. 212. In the 
interest of time, I also will summarize the written comments, 
which have been submitted to the committee.
    The administration agrees with the committee concerning the 
importance of ground water monitoring and the coordination of 
monitoring efforts among Federal, State, and local agencies. We 
especially appreciate the bipartisan efforts of the sponsors of 
the bill to address this important issue and the emphasis 
within the bill on the need for sound science.
    The administration does have a few concerns with the bill. 
The goals of the bill can be achieved without legislation 
through better coordination of existing Federal and State 
programs. And the total costs are uncertain. Funding for this 
program is not included in the fiscal year 2004 President's 
budget and will be subject to available resources.
    The irrigation water pumped from the aquifer has made the 
High Plains one of the Nation's most important agricultural 
area. The intense use of ground water has caused major declines 
in ground water levels, raising concerns about the long-term 
sustainability of irrigated agriculture. The changes are 
particularly evident in the central and southern parts of the 
High Plains where more than 50 percent of the aquifer has been 
dewatered in some areas.
    The bill directs the Secretary of the Interior, acting 
through the USGS and in cooperation with the State geological 
surveys and water management agencies, to establish and carry 
out a program of characterization, mapping, modeling, and 
monitoring of the High Plains aquifer. The role identified for 
the Department of the Interior is consistent with USGS 
leadership in monitoring, interpretation, research. And the 
USGS has been active in a number of programs and investigations 
in the High Plains and has offices in each of the eight States.
    We carried out the first comprehensive quantitative study 
of the High Plains aquifer in the late 1970's through the 
Regional Aquifer System Analysis Program. We continued to 
provide ground water models in some parts of the High Plains, 
although an overall assessment of the aquifer is now over 2 
decades old.
    In response to the water level declines, the ground water 
monitoring program was begun across the entire High Plains in 
1988 to assess annual water level changes, an effort that 
required collaboration amongst Federal, State, and local 
entities. Water levels continued to decrease in many parts of 
the aquifer, but monitoring has indicated that the overall rate 
of decline has slowed somewhat during the past two decades, a 
change attributed to improved irrigation and cultivation 
practices, decreases in irrigated acreage, and above-normal 
precipitation during parts of this period. More in-depth 
studies would be required to determine the relative importance 
of these particular factors.
    We recognize the need to ensure that any USGS monitoring 
activities should complement State monitoring activities. In 
order to ensure cooperation between USGS and non-Federal 
communities, S. 212 requires that the Federal share of the cost 
of an activity be no more than 50 percent of the total of that 
activity. This is consistent with our earlier recommendation 
and thus resolves that particular issue as noted.
    And also in testimony on an earlier version of the bill, 
the Department testified that we were advised by the Department 
of Justice that sections three and four unconstitutionally 
required that States take certain actions. The committee has 
made revisions in S. 212 in an effort to address these 
concerns. The Department of Justice has reviewed the bill and 
advised us that the new bill meets their concerns.
    In summary, a reliable source of ground water is an 
essential element of the economy of the communities in the High 
Plains aquifer. The goals of the bill are commendable. It 
contains provisions that are well within the scope and 
expertise of the USGS. And it emphasizes a high level of 
coordination between the Department of the Interior and the 
States in addressing an issue of significant economic concern 
to the nation. However, the administration has some concern for 
the bill. And any new funding would remain subject to available 
resources.
    Thank you, Madam Chairman, for the opportunity to present 
this testimony. I am pleased to answer any questions that you 
or others may have.
    [The prepared statement of Mr. Alley follows:]

Prepared Statement of William M. Alley, Chief, Office of Ground Water, 
           U.S. Geological Survey, Department of the Interior

    Madam Chairman and Members of the Committee, thank you for the 
opportunity to provide the views of the Department of the Interior 
(DOI) on S. 212, the ``High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling, and Monitoring Act.'' The 
Administration agrees with the Committee concerning the importance of 
ground-water monitoring and coordination of monitoring efforts among 
Federal, State, and local entities. We especially appreciate the bi-
partisan efforts of the sponsors of the bill to address this important 
issue and the emphasis within the bill on the need for reliance on 
sound science.
    However, the Administration has a few concerns with this bill. The 
goals of this bill can be achieved without legislation, through better 
coordination of existing Federal and State programs. Further, the U.S. 
Geological Survey (USGS) and DOI are in the process of revising their 
strategic plan; while important, the proposed program would have to be 
taken into account among all DOI priorities as the strategic plan 
develops. The total costs of the proposed program are uncertain. 
Funding for this program is not included in the fiscal year 2004 
President's budget, and would be subject to available resources.
    Irrigation water pumped from the aquifer has made the High Plains 
one of the Nation's most important agricultural areas. The intense use 
of ground water has caused major declines in ground-water levels 
raising concerns about the long-term sustainability of irrigated 
agriculture in many areas of the High Plains. The changes are 
particularly evident in the central and southern parts of the High 
Plains, where more than 50 percent of the aquifer has been dewatered in 
some areas.
    The bill directs the Secretary of the Interior, acting through the 
USGS, and in cooperation with the State geological surveys and the 
water management agencies of the High Plains Aquifer States, to 
establish and carry out a program of characterization, mapping, 
modeling, and monitoring of the High Plains Aquifer. This would be 
accomplished through mapping of the configuration of the High Plains 
Aquifer, and analyses of the rates at which ground water is being 
withdrawn and recharged, changes in water storage in the aquifer, and 
the factors controlling the rate of flow of water within the aquifer. 
Effective coordination of the data collection and monitoring efforts 
requires that any data collected under the program be consistent with 
Federal Geographic Data Committee data standards and that metadata be 
published on the National Spatial Data Infrastructure Clearinghouse.
    The role identified for DOI in this bill is consistent with USGS's 
leadership role in monitoring, interpretation, research, and assessment 
of the earth and biological resources of the Nation. As the Nation's 
largest water, earth, and biological science, and civilian mapping 
agency, USGS conducts the most extensive geologic mapping and ground-
water investigations in the Nation in conjunction with our State and 
local partners. Furthermore, the USGS has been active in a number of 
programs and investigations that involve the High Plains Aquifer, 
specifically.
    The USGS has offices in each of the eight States underlain by the 
High Plains Aquifer (Texas, Oklahoma, Kansas, Nebraska, South Dakota, 
Wyoming, Colorado, and New Mexico). These offices have a long history 
of ground-water monitoring and assessment activities within the 
aquifer. Existing USGS programs that are highly relevant to High Plains 
Aquifer issues include the Ground-Water Resources Program, National 
Cooperative Geologic Mapping Program, National Water-Quality Assessment 
(NAWQA) Program, National Streamflow Information Program, Water 
Resources Research Act Program, and the Cooperative Water Program.
    The USGS carried out the first comprehensive quantitative study of 
the High Plains Aquifer in the late 1970's through the Regional 
Aquifer-System Analysis (RASA) Program. With our partners in the 
Cooperative Water Program, we continue to provide ground-water models 
to evaluate the present and future state of the aquifer in some parts 
of the High Plains, although an overall assessment of the aquifer is 
now over two decades old.
    In response to the water-level declines, a ground-water monitoring 
program was begun across the High Plains in 1988 to assess annual 
water-level changes in the aquifer, an effort requiring collaboration 
among numerous Federal, State, and local water-resource agencies. Water 
levels continue to decrease in many areas of the aquifer, but the 
monitoring has indicated that the overall rate of decline of the water 
table has slowed during the past two decades. This change is attributed 
to improved irrigation and cultivation practices, decreases in 
irrigated acreage, and above normal precipitation during this period. 
More in-depth studies are required to determine the relative importance 
of these different factors and to improve estimates of recharge rates, 
which is crucial to projecting future water levels and their response 
to changing agricultural practices.
    We recognize the need to ensure that any USGS monitoring activities 
should complement State monitoring activities. In order to ensure 
cooperation between USGS and the non-federal community, S. 212 requires 
that the Federal share of the costs of an activity funded under 
subsection (d)(2)(B) be no more than 50 percent of the total cost of 
that activity. This is consistent with our earlier recommendation to 
include language similar to that currently contained in the National 
Cooperative Mapping Act (43 U.S.C. Chapter 2, Section 31 c.).
    In testimony on an earlier version of this bill, S. 2773 in the 
107th Congress, the Department testified that we were advised by the 
Department of Justice that Sections 3 and 4 unconstitutionally required 
that States take certain actions. We recognize that the Committee has 
made revisions in S. 212 in an effort to address these concerns. The 
Department of Justice has reviewed the bill and advises that the new 
bill meets their concerns.
    In summary, a reliable source of ground water is an essential 
element of the economy of the communities on the High Plains. The goals 
of the bill are commendable, it contains provisions that are well 
within the scope and expertise of the USGS, and it emphasizes a high 
level of coordination between the Department of Interior and the States 
in addressing an issue of significant economic concern to the Nation. 
However, the Administration has concerns with the bill and any new 
funding would remain subject to available resources.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony. I will be pleased to answer questions you and other members 
of the Committee might have.

    Senator Murkowski. Thank you, Mr. Alley, for your 
testimony.
    Just very briefly, you stated that the administration does 
have concerns. You have outlined a couple of them, the 
uncertainty about the total cost. But you also mentioned at the 
outset that you felt it could be achieved, that the goals of 
the legislation could be achieved, without legislation.
    Mr. Alley. Yes, the bill calls for better coordination of 
Federal and State programs. And so obviously trying to get a 
larger perspective on the High Plains aquifer is contingent 
upon essentially an overarching view of the aquifer. And so 
through better coordination of existing programs, that would 
provide some of that type of information.
    Senator Murkowski. All right. And then if--you have 
indicated that the concerns the Department of Justice had for 
the previous bill have been met with the changes that we have 
before us. But you have not clearly stated what the 
administration's position is. I think you have just left it to 
say that there are concerns.
    Mr. Alley. I think that the two concerns that were raised 
were, one, whether or not the issues could be addressed through 
better coordination of existing activities. And the second 
residual concern would be the costs that are uncertain and how 
that plays out with other priorities.
    Senator Murkowski. As to the costs themselves, which you 
keep referring to as uncertain, do you have an estimate, a 
ballpark, in terms of what the cost of the proposed program may 
be?
    Mr. Alley. I do not, no.
    Senator Murkowski. So it is that uncertain.
    Mr. Alley. It is uncertain, yes.
    Senator Murkowski. All right.
    At this time, I would like to go to the members of the 
committee. Senator Bingaman, if you would care to ask your 
questions or make an opening statement.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much, Madam 
Chairman. Congratulations on your first meeting of the 
subcommittee. And I am honored that we are the first item up.
    Let me just make a couple of statements first. And then I 
will ask a couple of questions.
    This is legislation that I worked with Senator Brownback 
and Senator Domenici on in the prior Congress and again this 
time, when we introduced the bill. There is a chart that we are 
going to put up here, that we will also give you a small copy 
of, that shows the Ogallala aquifer. It is one that the USGS 
prepared. I am sure Mr. Alley has seen it many times.
    But it tries to identify the areas in the aquifer that are 
being depleted most rapidly. And that is the red areas. 
Particularly, we are concerned in those southern States on the 
east side of New Mexico. Of course, you see that the aquifer 
does come into our State. Much of it is in Texas and then some 
in Arizona and Colorado and Kansas and up into Nebraska, and 
even into Wyoming, I would point out.
    But our intent in this legislation is quite clear. And that 
is that we believe since this is a multi-State issue and since 
this aquifer underlays several States, it is important that we 
use Federal resources to assist the State geologists, to assist 
the water users in these communities that depend upon this 
aquifer, to understand what the extent of the resource is, how 
it is changing, how it is being depleted. And if we can pass 
this legislation, it will bring a focus and a real increased 
priority to doing this work. That is the hope behind the 
legislation.
    Now I understand that if the administration had this as a 
top priority themselves, it may be that legislation like this 
would not be needed. But in the past, it has not been a 
priority for the prior administration or for this 
administration. And I think they have provided assistance where 
they could.
    [The prepared statement of Senator Bingaman follows:]

        Prepared Statement of Hon. Jeff Bingaman, U.S. Senator 
                            From New Mexico

    I am pleased that the Subcommittee on Water and Power is conducting 
this hearing today on S. 212, the High Plains Aquifer Hydrogeologic 
Mapping, Characterization, Modeling and Monitoring Act. This is bi-
partisan legislation, co-sponsored by my friends Senator Brownback and 
Senator Domenici, which I hope will be considered very soon by the full 
Committee and approved by the Senate. This legislation was passed last 
Congress by the Senate by unanimous consent.
    The High Plains Aquifer, comprised in large part by the Ogallala 
Aquifer, is experiencing alarming rates of decline in many areas. This 
Aquifer is the lifeblood of many communities, ranches and farms 
throughout the Great Plains. It plays a key role in providing water 
supplies to parts of eastern New Mexico.
    According to the U.S. Geological Survey, one of the largest areas 
of the Aquifer with the greatest water-level decline from 1980 to 1999 
is found in eastern New Mexico and western Texas. That area had from 50 
to 175 feet of water-level decline from 1950 to 1980 and more than 60 
feet of water-level decline from 1980 to 1999.
    The bill establishes a cooperative program for mapping, modeling 
and monitoring the Aquifer to be carried out by the USGS and the State 
Geological Surveys of participating High Plains Aquifer States. Under 
the bill, substantial funding would be made available to the State 
Geological Surveys and for grants for state and local government 
agencies, academic institutions, and other entities undertaking work 
related to the Aquifer.
    No comprehensive modeling of the Aquifer has taken place for over 
two decades. The bill will ensure that adequate information is 
available to those who depend on the Aquifer, including ranchers, 
irrigators and communities. It will also provide a needed source of 
funding to allow states, academic institutions, and other state and 
local entities to continue the important work of mapping, modeling and 
monitoring the Aquifer.
    This bill is one of two pieces of legislation relating to the High 
Plains Aquifer that I introduced last Congress. The other bill served 
as the basis for a provision that was included in last year's Farm 
Bill. Under that legislation, $25 million was provided to farmers and 
ranchers in the High Plains Aquifer states as incentive payments to 
assist them in installing water conserving irrigation systems and for 
other water conservation measures. I hope that during this Congress we 
will be able to enact this second bill, to provide farmers and 
ranchers, communities, and others with enhanced information relating to 
the Aquifer.
    I want to thank the Subcommittee chair for conducting this hearing 
and thank the witnesses for their testimony.

    Senator Bingaman. But I believe Mr. Alley made the point, 
and I will just ask him this question, that it is really a 
couple of decades old now, our last comprehensive survey of 
this underground aquifer. Is that your testimony?
    Mr. Alley. Aside from the water level monitoring that you 
portray in the figure it was really in the late 1970's that the 
last look at the entire aquifer was taken.
    Senator Bingaman. Yes. And our concern, frankly, is that 
there is a lot of anecdotal evidence that there has been 
significant depletion at different places since then. Some of 
it is reflected on this map. We think we may have not captured 
it all. And that is why the idea was that we should do modeling 
and monitoring and mapping of the underground aquifer in a more 
comprehensive way and provide the information.
    I am disappointed, frankly, that we got this statement from 
the American Farm Bureau Federation saying that they oppose the 
bill because they see it as a move toward Federal management of 
ground water. That is not the purpose of the bill. That is not 
what the bill says. But I think to suggest that each State is 
adequately dealing with this issue on their own is just not the 
real world. They are not.
    I think the people responsible at the State levels would be 
the first to acknowledge that they need this additional help. I 
think the State geologists are the strongest proponents of this 
legislation. So I very much hope we can pass this, as we did in 
the last Congress. It passed the Senate unanimously in the last 
Congress. I hope it can pass again this time. And I hope we can 
get it to the President.
    Senator Murkowski. Thank you, Senator.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you. Thank you, Madam Chairman. And I 
kind of got a last minute introduction to this bill. I believe 
it passed on the last night of the Senate. Was that not 
correct?
    Senator Bingaman. I think virtually everything that came 
out of this committee passed the last night of the Senate.
    Senator Thomas. Exactly. So it really was not considered by 
the Senate. I am concerned about it, and I need to know more 
about it, and I intend to look at it. The American Farm Bureau, 
as you pointed out, indicates that historically the States have 
had this jurisdiction and, I suppose, will continue to. But 
then the question is: What is this Federal involvement going to 
be?
    There have been comprehensive studies going on; Texas A&M 
University, Kansas State University. The High Plains aquifer 
has been studied and is being studied. Apparently, there is a 
great deal of information out there now. It is interesting that 
the Geological Survey has indicated that it can be achieved 
without the legislation, which I think we ought to pay some 
attention to.
    It is also that the funding in this program is not included 
in the 2004 budget. So that could have something to do with it. 
I notice that from Texas they are--they think the bill does not 
address the several issues of concern there, and that the 
Department of Agriculture, Natural Resource Conservation 
Service is already leading this, and question the need for it, 
of course, as the same thing is true in Colorado, where, 
however well intentioned it is, they claim that perhaps it 
ought to be recast for the States to be able to do what is done 
here. And I know there is controversy about that.
    According to my Wyoming people, the Association of 
Conservation Districts, why, $65 million has been authorized to 
the Natural Resource Conservation Service to do these kinds of 
things. $45 million will go to High Plains aquifer States. And 
so if there is to be funding there, this question is already 
there and already a way to do it.
    So I think there is some concerns about it that are going 
to have to have a considerable amount of discussion and I 
think, frankly, with more people than have come around to this 
particular hearing.
    I guess I have one question I would like to ask. If we 
already have existing programs in the new farm bill, is that 
why we do not need another Federal program?
    Mr. Alley. I do not think there are many programs in the 
farm bill related to ground water resource assessment. I am not 
sure on that account, however.
    Senator Thomas. I think there are; I think the Natural 
Resource Conservation Service. Are you familiar with that?
    Mr. Alley. Yes.
    Senator Thomas. And you do not think they are able to do 
that?
    Mr. Alley. They are probably primarily looking at 
management practices on the land surface and evaluating what 
the best management practices are, but probably not looking at 
the impacts on the ground water system itself.
    Senator Thomas. They are working with the States, however, 
to do that.
    Mr. Alley. Probably, yes.
    Senator Thomas. Well, in any event, what method are you 
going to use for monitoring, if you do this?
    Mr. Alley. The principal method of monitoring would be 
basic water level monitoring; in other words, observation wells 
that have water levels measured on a fairly frequent basis.
    Senator Thomas. And we have those now?
    Mr. Alley. We have those now.
    Senator Thomas. Well, I will not take more of your time. 
But I guess I just want to express the concern that many people 
have and that--and, frankly, that, by many people's view, this 
is somewhat of an intrusion of the Federal Government into the 
management of underground water, which has largely been--now 
you say, ``Well, this does not have anything to do with 
management.'' But I do not think that is the view that many 
people have.
    The administration testified last year that existing 
programs could accomplish the goal without this. What programs 
exist now that would do that?
    Mr. Alley. I am not sure that there is an overarching 
program at the moment--aside from the water level monitoring, 
which is a collaborative effort between the States and the 
USGS.
    Senator Thomas. That is what it is all about, is water 
monitoring, right?
    Mr. Alley. For the water monitoring component, yes.
    Senator Thomas. Well, I hope we have some more input into 
this bill before we seek to go forward, because there does seem 
to be a substantial amount of question.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you, Senator.
    Senator Bingaman. Madam Chairman, maybe I could just shed 
some light on the farm bill provisions that related to this 
that Senator Thomas was asking about, because I also proposed 
those. And we were able to get them included in last year's 
farm bill.
    What we did there was to get some funds that could be used 
by the Federal agency, the Natural Resource Conservation 
Service, to assist water users that voluntarily chose to 
improve their irrigation practices or to go to more water 
efficient irrigation practices. Essentially, the Federal 
Government would step up and pay half the cost of that, if you 
wanted to shift over to better sprinklers so that you were not 
using so much water and were not wasting so much water.
    And we had $25 million identified in last year's farm bill 
for the use in this Ogallala aquifer area for that. But that 
was a strictly voluntary program that did not include within it 
anything related to the monitoring and mapping and modeling of 
the underground aquifer. This part of it was not an appropriate 
thing to include in the farm bill. And this was, therefore, 
moved as a separate piece of legislation.
    Senator Murkowski. Thank you, Senator.
    Just very quickly, Mr. Alley, I understand that the USGS 
has had some ongoing studies that relate to the aquifer. Do you 
have any idea how much has been spent on these research 
efforts?
    Mr. Alley. I do not know the amount that has been spent. 
The Republican Basin in Colorado, Kansas, Nebraska, and the 
panhandle of Oklahoma are the two places where we have looked 
at the aquifer in some detail most recently. Most of the other 
studies have been related to localized studies or specialized 
data collection activities, with the exception of our National 
Water Quality Assessment Program, which is focused on water 
quality and is in fact looking at the entire High Plains. But 
it is limited to an evaluation of the water quality aspects of 
the aquifer.
    Senator Murkowski. Okay. Thank you.
    Senator Bingaman.
    Senator Bingaman. Yes, Madam Chairman. Let me mention one 
other options. Senator Thomas's concern is that some of the 
States did not want this done. I would have no problem with 
writing a provision in that States that did not want to 
participate in this would certainly have the option of not 
participating. I think that would be an appropriate way to go.
    If Wyoming or Nebraska or Colorado had any objections to 
participating, I think they should certainly have the right to 
not participate. But it would be a very useful thing in my 
State of New Mexico to have this assistance in modeling and 
monitoring what is going on in the underground aquifer.
    Senator Thomas. Madam Chairman----
    Senator Murkowski. Just one moment. I want to clarify.
    It was my understanding, Senator Bingaman, that this was 
elective by the States. Is that not correct?
    Senator Bingaman. It is. You are correct. And I stand 
corrected on that. They already have an opportunity. Yes. Every 
State opts in if they want to and participates or has the 
option to stay out.
    Senator Murkowski. Okay.
    Senator Thomas.
    Senator Thomas. On the USGS past and current activities, 
the sheet you publish, what is new, major aquifer study, 
Ogallala formation, Northern High Plains. This is for 2002. 
Activities for fiscal year 2001, major aquifer study, Ogallala 
formation, Southern High Plains. It sounds as if you have 
already been doing this substantially. Why do we need to do 
more?
    Mr. Alley. I am not sure where you are reading from. But my 
guess is it is probably related to the National Water Quality 
Assessment study, that I previously mentioned.
    Senator Thomas. Well, it is from your Department. I should 
think you might become familiar with it, if you are going to 
testify on this bill.
    Senator Murkowski. Senator Bingaman.
    Senator Bingaman. Yes. Let me just also clarify. Our bill 
would, assuming that we get some appropriation to support this 
authorized activity, our bill makes funds available to States 
to do a lot of this monitoring as well, which they do not, USGS 
does not now have that authority, as I understand it, to turn 
over its funds to the States to do this monitoring.
    Mr. Alley. That is correct, Senator.
    Senator Murkowski. Well, if I can follow up then, Mr. 
Alley. If the funding is then going into the States, what 
organizations--in terms of the management, what organizations 
within the States are you working with, is USGS being worked 
with?
    Mr. Alley. Currently?
    Senator Murkowski. Currently.
    Mr. Alley. Currently, we are working with water management 
districts and State water management agencies within the States 
through the Cooperative Water Program.
    Senator Murkowski. Okay. So--and so they are implementing 
it on behalf of USGS.
    Mr. Alley. The Cooperative Water Program works in a way 
that, where there is a Federal interest and a State interest 
investigating particular aspects of water resources, then we 
essentially have funding, part funding from Federal and part 
funding from the States, to carry out those kinds of 
investigations. So they are focused on particular issues within 
particular States.
    Senator Murkowski. Okay. Are there further questions?
    Senator Thomas. Just again an observation: According to the 
Natural Resource Conservation Service, $65 million was 
authorized and appropriated. $45 million go to High aquifer 
States, and $20 million is distributed nationwide. So, you 
know, in the Agriculture Department, they have already been 
there. Now you may say, ``Well, they are not doing the same 
thing.'' But how many times are we going to have the same 
people from the Federal Government out there doing these 
things, I think is a question we have to ask.
    Senator Murkowski. Senator Bingaman.
    Senator Bingaman. Yes. I do think that what that funding is 
for is improved water conservation practices, which I think is 
what we included in the farm bill. And what we are trying to do 
here, of course, is to provide assistance with the monitoring 
and modeling and mapping of the underground aquifer, which is 
obviously not done through that agency, but through USGS and 
the State geologists primarily.
    Senator Murkowski. Mr. Alley, before we let you go, I will 
ask again, because I am still not certain in terms of the 
response that you gave me as to the administration's position--
--
    Mr. Alley. Okay.
    Senator Murkowski [continuing]. Can you elucidate just----
    Mr. Alley. The two points?
    Senator Murkowski [continuing]. Just yes or no?
    Mr. Alley. Yes or no to?
    Senator Murkowski. Yes or no: Does the administration 
support the legislation that we have?
    Mr. Alley. I would say there are two concerns associated 
with the bill that would make it difficult to say completely 
yes to the bill without reservations.
    Senator Bingaman. And the two concerns are, again?
    Mr. Alley. The two concerns would be whether or not----
    Senator Bingaman. It is not funded.
    Mr. Alley. It is not. There is no funding for it.
    Senator Bingaman. Right.
    Mr. Alley. And the other one would be whether or not these 
same goals could be achieved through better coordination of 
existing activities.
    Senator Murkowski. Okay. Well, I appreciate you coming 
before the subcommittee this afternoon. Thank you.
    As I indicated earlier, this hearing is also examining S. 
220, sponsored by Senator Fitzgerald, and its companion 
legislation, H.R. 397. These would reinstate an FERC license of 
a four-megawatt hydroelectric project in Illinois and extend 
the deadline for the commencement of construction.
    These bills would allow the city of Carlyle, Illinois, to 
construct the hydroelectric power facility on an existing U.S. 
Army Corps of Engineers dam on the Kaskaskia River. And in 
addition to benefit to the city, this project will provide a 
renewable energy source for surrounding communities.
    Senator Fitzgerald's legislation on this issue was reported 
during the last Congress by the Energy Committee and passed the 
Senate. The House was not able to consider it at that time. The 
administration, which has submitted testimony on both S. 220 
and H.R. 397, does not oppose the legislation.
    And as I indicated earlier, we will be taking these up in 
markup next Wednesday.
    And with that, there is nothing further to come before the 
subcommittee, and we stand adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

    Statement of Pat Wood, III, Federal Energy Regulatory Commission
    Madam Chairman and Members of the Subcommittee:
    I appreciate the opportunity to comment on S. 220 and H.R. 397, 
identical bills to reinstate the surrendered license and to extend the 
commencement of construction deadline applicable to a hydroelectric 
project licensed by the Federal Energy Regulatory Commission in the 
State of Illinois.
    Section 13 of the Federal Power Act requires that construction of a 
licensed project be commenced within two years of issuance of the 
license. Section 13 authorizes the Commission to extend this deadline 
once, for a maximum additional two additional years. If project 
construction has not commenced by this deadline, the Commission is 
required to terminate the license. Section 13 also authorizes the 
Commission to extend the deadline for completion of construction when 
not incompatible with the public interest.
The Project
    On June 26, 1997, the Commission issued a license to Southwestern 
Electric Cooperative, Inc. (Southwestern) to construct, operate, and 
maintain the 4-megawatt Carlyle Hydroelectric Project No. 11214, to be 
located at the U.S. Army Corps of Engineers' Carlyle Dam on the 
Kaskaskia River in Clinton County, Illinois. Construction of the 
project entails installing an intake structure, five intake conduits, a 
powerhouse with five 800-kilowatt generating units, a transmission 
line, and appurtenances. The deadline for the commencement of project 
construction was June 26, 1999.
    By filing of March 3, 1999, Southwestern advised the Commission 
that it would be applying to surrender the project license. On March 
27, 2000, Southwestern filed an application to surrender the license, 
stating that the project was no longer economically feasible. No 
project construction had commenced. The Commission accepted the 
surrender, effective June 24, 2000.
S. 220 and H.R. 397
    Both bills would authorize the Commission, upon request of the 
licensee, after reasonable notice and in accordance with the 
requirements of Section 13 of the Federal Power Act, to reinstate the 
surrendered license for Project No. 11214 and to extend the deadline 
for commencement of project construction for three consecutive 2-year 
periods beyond the date that is four years after the issuance date of 
the license.
    As a general matter, enactment of bills authorizing or requiring 
commencement-of-construction extensions for individual projects delays 
the development of an important energy resource and therefore has not 
been recommended. In cases where project-specific extensions are 
authorized by the Congress, it has been the policy of prior Commission 
chairmen that such extensions not go beyond ten years from the date the 
project was licensed. If a licensee cannot meet a ten-year deadline, 
then as a general rule the license should be terminated, making the 
site once again available for such uses as current circumstances may 
warrant, based on up-to-date information on economic and environmental 
considerations. I have no reason to depart from this extension policy.
    S. 220 and H.R. 397 would provide for extensions of the deadline 
for commencement of construction that would not exceed ten years from 
the date the license was issued. Since this time period is within the 
ten-year deadline, I have no objection to the bills' enactment.
                                 ______
                                 
 Statement of Peter Scholle, Ph.D., State Geologist and Director, New 
Mexico Bureau of Geology and Mineral Resources, New Mexico Institute of 
  Mining and Technology Socorro, NM and M. Lee Allison, Ph.D., State 
  Geologist and Director, Kansas Geological Survey, the University of 
                          Kansas, Lawrence, KS

    Mr. Chairman and Members of the Committee, we are submitting this 
testimony on behalf of the High Plains Aquifer Coalition in support of 
Senate Bill 212--The High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling and Monitoring Act. The Coalition 
is a joint effort between the geological surveys of the eight High 
Plains Aquifer states and the U.S. Geological Survey. The Coalition 
objective is to improve the geological characterization and 
understanding of the High Plains aquifer. We appreciate the Committee 
holding a hearing on this important issue.

                              INTRODUCTION

    A reliable source of water is essential to the well-being and 
livelihoods of people in the High Plains region where ground water is 
used for drinking water, ranching, farming, and other purposes. Many 
areas of the High Plains aquifer have experienced a dramatic depletion 
of this resource. Large-volume pumping from this aquifer has led to 
steadily declining water levels in the region, and the area faces 
several critical water-related issues.
    Let us begin with some facts about the aquifer. The High Plains 
aquifer is the most widespread blanket sand and gravel aquifer in the 
nation. It encompasses one of the major agricultural regions in the 
world and underlies 174,000 square miles, including parts of eight 
states--New Mexico, Texas, Oklahoma, Kansas, Colorado, Nebraska, 
Wyoming and South Dakota (Figure 1).*
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in subcommittee files.
---------------------------------------------------------------------------
    Approximately 2.3 million people live within the High Plains, and 
the aquifer supplies drinking water for 82 percent of them. 
Agriculture, however, represents both the dominant land and water use 
in the region (94 percent of groundwater withdrawals from the aquifer 
are for irrigation). The High Plains aquifer is the most intensely 
pumped aquifer in the United States, yielding about 30 percent of the 
nation's ground water used for irrigation. During 1995, total water use 
in the High Plains was estimated to be 19.9 billion gallons per day 
and, with the exception of the Platte River Valley of Nebraska, 92 
percent of that need was met by aquifer water.
    Although High Plains dry-land farming is possible, availability of 
``water on demand'' from the aquifer has made abundant, reliable crop 
yields a reality. As a result, the region accounts for about 19 percent 
of total U.S. production of each wheat and cotton, 15 percent of our 
corn, and 3 percent of our sorghum. In addition, the region produces 
nearly 18 percent of U.S. beef and is rapidly becoming a center for hog 
and dairy industries. Those numbers alone should elevate concern about 
the sustainability of the aquifer from a regional to a national level.

                        AQUIFER CHARACTERIZATION

    Aquifers are underground deposits containing permeable rock or 
sediments (silts, sands, and gravels) from which water can be pumped in 
usable quantities. Although the High Plains aquifer often is discussed 
as a single entity, it is a regional system composed of eight smaller 
units that are geologically similar and hydrologically connected--that 
is, water can move from one aquifer to the other. The aquifer is 
unconfined, that is, it is not confined under pressure below 
impermeable rocks as artesian water is. The aquifer consists of a 
heterogeneous mixture of loose clays, silts, sands, and gravels that 
formed over millions of years by ancient river systems. The Ogallala 
Formation is the principal geologic unit, but the aquifer as a whole 
also includes deposits that are older and younger than the Ogallala. In 
some locations, the Ogallala Formation crops out at the surface, 
forming a naturally cemented rock layer called mortarbeds.
    Aquifer characteristics are determined in large part by geology. 
The High Plains aquifer is composed mainly of silt, sand, gravel, and 
clay--rock debris that washed off the face of the Rocky Mountains and 
other more local sources over the past several million years. The 
aquifer varies greatly from place to place: thick in some places, thin 
in others; permeable (able to transmit water easily) in some places, 
less so in others. Where the deposits are thick and permeable, water is 
easily removed and the aquifer can support large volumes of pumping for 
long periods. In most areas, this water is of good quality.
    Beneath the High Plains aquifer is much older, consolidated 
bedrock, usually limestone, sandstone, or shale. In some places this 
bedrock holds enough water to be called an aquifer, and it may be 
connected to the overlying aquifer. Some layers of the underlying 
bedrock contain saline water; where these are directly connected to the 
High Plains aquifer, they pose a threat to water quality.

               WATER RESOURCES IN THE HIGH PLAINS AQUIFER

    Usable water in the High Plains aquifer is in the pore spaces 
between particles of sand and gravel. This water (called ground water) 
accumulated slowly--in some of the deeper parts of the aquifer, over 
tens of thousands of years. In the subsurface, water in the aquifer 
generally moves slowly from west to east, usually at the rate of tens 
of feet per year.
    Water volumes and use are measured in various ways. One measure is 
an acre-foot, or the amount of water necessary to cover an acre of 
ground (a parcel about the size of a football field) with a foot of 
water. An acre-foot equals 325,851 gallons of water.
    Another measure of ground water is saturated thickness. The 
saturated thickness of the High Plains aquifer is the vertical distance 
between the water table and the base of the aquifer. Saturated 
thickness is commonly measured in feet but ``feet of saturated 
thickness'' is not the same as feet of actual water. Only about 10 to 
25 percent of the aquifer volume is pore space that can yield 
extractable water. Therefore, in an aquifer with 17 percent pore space, 
removing 1 acre-foot of water causes the water table to drop by about 6 
feet. The saturated thickness of the aquifer can exceed 1,000 feet, but 
averages about 200 feet. Depth to water table ranges from 0 to 500 
feet, with an average of about 100 feet. Much greater saturated 
thicknesses were common before the onset of large-scale irrigation.
    Ground water can also be measured in terms of its availability: how 
much water can be removed by a well over short periods. Large volumes 
of water can be pumped rapidly (1,000 gallons or more per minute) from 
the High Plains aquifer in many locations. This contrasts with many 
areas in the region, where wells generally produce smaller amounts 
(less than 100 gallons per minute). By way of comparison, a good 
household well produces 5 to 10 gallons per minute, although many 
household wells produce less.
    Recharge is the natural movement of water into an aquifer, usually 
from precipitation. Areas of increase can also be the result of 
increased recharge to the aquifer by one or more of the following 
factors: greater than normal precipitation; decreased withdrawals; or 
downward leakage of surface-water irrigation and water from unlined 
canals and reservoirs. The relatively low rainfall of the region limits 
aquifer recharge rates and thus provides a long-term limit on 
sustainable water use. The estimated average annual potential recharge 
from rainfall ranges from as little as 1/4th of an inch per year in the 
southwestern portion of the aquifer area to 6 inches in the 
northeastern portion. Where the aquifer is closer to the earth's 
surface, where soils are sandier, and precipitation amounts greater, 
recharge can be significant, as much as 4 to 6 inches per year.
    Withdrawals greatly exceeded recharge in many areas since intensive 
irrigation began in the 1940's. This has resulted in widespread water-
level declines, especially in southern areas more than 100 feet in 
parts of Kansas, New Mexico, Oklahoma and Texas. In some places, 
irrigation has become impossible or cost prohibitive because of such 
declines. From 1980 to 1997, the average water level in the aquifer 
fell 2.7 feet (Figure 2).
    Aquifer water generally flows eastward and discharges naturally to 
streams and springs. Water may also be lost from the aquifer by 
evapotranspiration or through leakage into underlying rock units. 
However, pumping from the numerous irrigation wells is the number one 
cause of groundwater withdrawal. Decreases in saturated thickness of 10 
percent or more result in a decrease in well yields and an increase in 
pumping costs because the pumps must lift the water from greater depths 
(Figures 3 & 4).

                  WATER-LEVEL DECLINES IN THE AQUIFER

    Large-scale irrigation began in the High Plains in the late 1800's, 
with the use of ditches to divert water from rivers. As technology 
improved, groundwater became the major irrigation source because 
surface water (lakes, rivers, and streams) is relatively scarce in the 
region. With the advent of large-capacity pumps that were capable of 
drawing several hundred gallons of water per minute, people began to 
exploit that ground water. Water was pumped through long pipes or 
ditches along the edges of a field, then out onto rows of crops, using 
a technique called flood irrigation.
    In the 1950's and 1960's, technological developments led to a 
dramatic increase in large-scale pumping. In particular, center-pivot 
irrigation systems--large sprinklers that roll across the land on 
wheels--allowed people to irrigate uneven terrain, thus opening up 
large new areas for irrigation. These irrigation methods led to the 
cultivation of crops, such as corn, that could not previously be grown 
reliably in the area.
    For many years, people believed that the High Plains aquifer 
contained an inexhaustible amount of water. However, large-volume 
pumping (mostly for irrigation) eventually led to substantial declines 
in the water table, and people realized that the amount of water in the 
aquifer was finite and could be exhausted. Much of the Ogallala portion 
of the High Plains aquifer has declined since predevelopment, with some 
areas having declines of more than 60 percent.

                     WHEN WILL THE AQUIFER RUN DRY?

    Perhaps the most common and important question about the High 
Plains aquifer is: How much longer can it support large-scale pumping? 
It's a simple question with a complicated answer. First, the aquifer 
will probably be able to support small, domestic wells far into the 
future. With proper planning, most cities and towns should be able to 
provide for their water needs. Second, the future of agricultural use 
of the aquifer depends on a variety of factors, including the price of 
irrigated crops, the price and availability of energy (the deeper the 
water table, the more energy it takes to pump water), climate, and how 
the water is managed. Third, it is important to remember that the 
aquifer is not one consistent, homogeneous unit. Rather, it varies 
considerably from place to place. In places, the aquifer consists of 
less than 50 feet of saturated thickness and receives little recharge. 
In other places, the aquifer is far thicker or receives considerably 
more recharge.
    With those qualifications in mind, researchers have made 
projections about the aquifer, based on past trends in water-level 
declines. Obviously, the actual future use of water will be affected by 
commodity prices, energy prices, climate, and management policies. In 
addition, relatively little data are available for some parts of the 
aquifer, and projections are not practical in those areas. Assuming a 
saturated thickness of 30 feet as the minimum amount necessary to 
support large-scale pumping, researchers concluded that parts of the 
aquifer are effectively already exhausted in some areas. Other parts of 
the aquifer are predicted to have a lifespan of less than 25 years, 
based on past decline trends. However, the biggest share of the aquifer 
would not be depleted for 50 to 200 years or longer. It is important to 
remember that these projections are based on past trends, and future 
changes could alter the actual depletion rate.

                       WHERE DO WE GO FROM HERE?

    Individuals, governmental agencies, and private organizations are 
all attempting to address issues related to the High Plains aquifer. In 
addition, several new institutions have recently been proposed to deal 
with issues concerning the aquifer on a regional basis. Irrigators have 
implemented a number of techniques that have improved the efficiency 
with which they use water--using low-pressure application methods on 
center-pivot systems, for example, instead of spraying water high into 
the air.
    Among the more far-reaching proposals for extending the life of the 
aquifer is the idea of sustainable development. This is the concept of 
limiting the amount of water taken from the aquifer to no more than the 
amount of recharge, and perhaps less, depending on the impact on water 
quality and minimum stream flows. This level of use is the target of 
the safe-yield management policies currently in effect in some 
Groundwater Management Districts in the wetter or thicker parts of the 
High Plains aquifer. Adoption of a similar policy in other areas of the 
High Plains aquifer would require a substantial decrease in the amount 
of water currently used. This would have an impact on the type and 
amount of crops grown in the area and, in turn, on a variety of 
economic activities. Because many of the water rights in the High 
Plains aquifer were established long ago, and thus may have priority, 
the implementation of sustainable-development approaches to water 
resources has potentially serious legal implications. Other methods for 
dealing with the High Plains aquifer are being proposed, discussed, and 
implemented. All are aimed at extending the life of this crucial 
resource.

                     HIGH PLAINS AQUIFER COALITION

    Each state manages its water resources differently. The number of 
state and local water agencies and their duties vary dramatically among 
the eight High Plains states. None of the eight state geological 
surveys deal directly with groundwater management. State geological 
surveys provide scientific advice to their respective state and local 
management agencies. Some state surveys focus strictly on the geologic 
framework in which groundwater exists, others investigate both the 
geology and the hydrology of groundwater.
    Because the structure for conducting hydrogeologic research on the 
aquifer differs dramatically among states, both the existing knowledge 
base and ongoing aquifer research efforts vary substantially from state 
to state. Much of past research was limited by state expertise, budget 
allocations and cooperation among state agencies. To prevent future 
inconsistencies among state research efforts and to efficiently utilize 
existing research data, in June 2000, the geological surveys of the 
eight states that contain the High Plains aquifer formed the High 
Plains Aquifer Coalition, in alliance with the U.S. Geological Survey. 
Coalition members are Kansas Geological Survey, New Mexico Bureau of 
Geology and Mineral Resources, Nebraska Conservation and Survey 
Division, Texas Bureau of Economic Geology, Colorado Geological Survey, 
Oklahoma Geological Survey, South Dakota Geological Survey, Wyoming 
State Geological Survey, and U.S. Geological Survey.
    The purpose of the Coalition is to cooperate in joint 
investigations and scientific exchanges concerning the earth sciences 
(including hydrology, geology, geochemistry, geochronology, geophysics, 
geotechnical and geological engineering and related investigations) on 
topics of mutual interest. This agreement was specifically undertaken 
to advance the understanding of the three-dimensional distribution, 
character, and nature of the sedimentary deposits that comprise the 
High Plains aquifer in the eight-state Mid-continent region. It 
recognizes that the distribution, withdrawal, and recharge of 
groundwater, and the interaction with surface waters is profoundly 
affected by the geology and the natural environment of the High Plains 
aquifer in all eight States--New Mexico, Texas, Oklahoma, Colorado, 
Kansas, Nebraska, South Dakota, and Wyoming--thereby establishing a 
commonality of interests among the Surveys and citizens of these 
states.
    The Geological Surveys agreed that reaching a fuller understanding 
of the three-dimensional framework and hydrogeology of the High Plains 
Aquifer is necessary to provide local and state policymakers with the 
earth-science information required to make wise decisions regarding 
urban and agricultural land use, the protection of aquifers and surface 
waters, and the environmental well being of the citizens of this 
geologically unique region.

                             RESEARCH NEEDS

    Through past research, we have learned that the aquifer consists of 
many subregions or smaller units. Past research also helped identify 
the need to focus future efforts on geological and hydrological 
characterization, mapping, modeling and monitoring of aquifer subunits. 
The eight state geological surveys and the U.S. Geological Survey, in 
consultation with state and local water agencies and groups, have 
agreed on the need for comprehensive understanding of the subsurface 
configuration and hydrogeology of the High Plains Aquifer. Improved 
knowledge in these areas will refine our understanding of the aquifer 
and provide better tools and strategies for long-term, coordinated 
aquifer management.
    The High Plains Aquifer Coalition is in the early stages of 
developing a cooperative regional strategic plan for scientific 
research and collaboration that will lead to a more detailed 
understanding of what research is required in the region. Major 
research questions in the High Plains aquifer include: rates and 
controls on recharge, relationships among saturated thickness, geologic 
character, and well yield, relationship among water levels, water use, 
and aquifer lifetime, impacts of climate changes, and appropriate scale 
and precision of data sets for new management approaches.
    Topical research areas that we anticipate to be addressed by this 
legislation include the following:

  <bullet> Research on the regional geologic framework, particularly 
        the completion of detailed, quadrangle-size (1:24,000 scale) 
        surface and subsurface geologic maps and models in digital 
        format, and the public dissemination of these maps and models, 
        as well as interpretive information derived from them.
  <bullet> Research on geologic processes relating to deposition of 
        sedimentary sequences--their definition, nature, extent, 
        origin, and bounding surfaces--forming the High Plains aquifer 
        and adjacent aquifers.
  <bullet> Research on the region's hydrogeology and its fluid systems.
  <bullet> Research on processes controlling the quantity and quality 
        of water recharging the High Plains aquifer, including the 
        effect of past and future changes in climate and land-use 
        activities on recharge.
  <bullet> Research on enhancing the recharge of the High Plains 
        aquifer.
  <bullet> Research on the porosity, permeability, storage capacity, 
        and specific yield of the aquifer.
  <bullet> Research on the geological and hydrological processes 
        controlling regional differences and temporal changes in water 
        quality.
  <bullet> Research on the vertical and lateral exchange of groundwater 
        between different formations that make up the High Plains and 
        adjacent aquifers and the effect of such exchange on water 
        quality in the High Plains aquifer.
  <bullet> Research on the age of groundwater recharging and moving 
        through the aquifer.
  <bullet> Research on improved techniques for modeling the occurrence, 
        movement, and quality of water in the High Plains aquifer.
  <bullet> Research on using geophysical techniques, procedures, and 
        models for regional application in mapping subsurface deposits 
        in the Mid-continent region.
  <bullet> Transfer of technology and information among the Surveys and 
        to both the private and public sectors.

    In addition to a possible increase in the density of data for 
adequate aquifer management the Coalition has identified a preliminary 
list of other data that would be needed to develop an aquifer 
management plan. These include:

  <bullet> Determination of the approach to define aquifer subunits, 
        such as hydrologic boundaries, groundwater divides, 
        hydrological characteristics, aquifer extent, major differences 
        in recharge, or saturated thickness, in conjunction with 
        administrative boundaries.
  <bullet> Determination of recharge, stream outflow, and ground-water 
        inflow and outflow to give estimates of net sustainable 
        quantities of water to be pumped from areas of different 
        saturated thickness in the High Plains aquifer.
  <bullet> Estimates of total saturated thickness and how it varies 
        across the aquifer that will be needed for continued pumping.
  <bullet> Estimates of depth ranges from ground surface to the base of 
        the aquifer.
  <bullet> Assessment of uncertainties for estimating sustainable yield 
        volumetrics of the aquifer, including practical saturation 
        thickness, water level measures, and depth to bedrock in 
        different areas.
  <bullet> Determination of methods to reduce the largest uncertainties 
        in calculating the aquifer volume.
  <bullet> Delineation of critical recharge areas.
         why the bill is important to the region and the nation
    Extending the life of the High Plains aquifer is essential to the 
economic viability of the region because there are no realistic 
alternative water sources. Accurate data about aquifer variability and 
subunit characteristics will allow us to properly determine current 
water levels, where and at what rates aquifer water moves, and the 
variables that impact water recharge rates in aquifer subunits. 
Knowledge of these factors will allow us to better predict future water 
levels and ultimately will lead to development of improved approaches 
for enhancing and extending the life of the aquifer and other factors 
useful for management purposes.
    Federal funds will expand existing capabilities and enhance the 
effects of ongoing state and local funding. Complementary activities 
will allow us to build regional databases and understanding of the 
aquifer. The bill enlists expertise from the U.S. Geological Survey not 
available at the state level and fosters better coordination with other 
groups within states and across state boundaries. State and local water 
users, managers and regulators are increasingly demanding the types and 
quality of data needed to develop useful and reasonable water 
management programs.
    For example, in Kansas, local Groundwater Management Districts are 
requesting subunit characterization of the aquifer that requires a more 
sophisticated and regional understanding of the nature of the aquifer. 
Current resources for state and federal water agencies are insufficient 
to meet these increasingly demanding needs.
    Senate Bill 212 establishes procedures to ensure that the research 
carried out is that most critical to water users and managers. The bill 
would require that broadly based state advisory groups concur with 
proposed studies; that peer review ensures the research is of the 
highest quality; that funds are awarded on merit; and that there is 
technical review of both federal and state activities. These procedures 
provide an unusually rigorous level of accountability.
    In conclusion, this bill is an important first step in a 
comprehensive program to extend the life of the aquifer. The bill will 
help ensure that the relevant science needed to address aquifer 
depletion is available so that we will have a better understanding of 
the resources of the High Plains aquifer and can ultimately lead to 
extending the life of the aquifer. We urge this Subcommittee to support 
Senate Bill 212--The High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling and Monitoring Act.
Acknowledgements:
    Substantive parts of the above text were taken with permission from 
Buchanan and Buddemeier, 2001, and modified slightly for use here. Dana 
Woodbury of the Ogallala Aquifer Institute, Garden City, Kansas, 
assisted in the preparation of this testimony.
References:
    Rex Buchanan and Robert Buddemeier, 2001. The High Plains Aquifer. 
Kansas Geological Survey, Public Information Circular 18, 6p.
    James Miller, 1999. Ground Water Atlas for the United States. 
United States Geological Survey, Introduction and National Summary.
    V.L. McGuire, March 2001. Water-Level Changes in the High Plains 
Aquifer, 1980 to 1999. United States Geological Survey. Fact Sheet -
029091.
                                 ______
                                 
            Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation (AFBF) appreciates the 
opportunity to provide this statement expressing our concerns about S. 
212 and the direct and indirect impacts of such legislation. AFBF is 
opposed to S. 212 and the bills language pertaining to the High Plains 
Aquifer.
    Historically, the issue of groundwater management in the areas of 
monitoring, modeling, mapping, water rights and water quality of 
aquifers has been the jurisdiction of states. Legislative efforts that 
would move away from states rights to manage groundwater and move 
toward a federal approach should be rejected.
    S. 212 contains numerous components that moves the management of 
groundwater toward federal jurisdiction. This legislation would require 
the Secretary of the Interior and the U.S. Geological Survey (USGS) to 
oversee work to characterize, map, model and monitor the High Plains 
Aquifer. AFBF opposes the entire federal component as outlined in Sec. 
3 and specifically, the establishment and consultation requirements of 
a Federal Review Panel and the requirement of the Secretary of the 
Interior to report to the Senate Committee on Energy and Natural 
Resources the status of the High Plains Aquifer.
    Each of the eight states that overlie the High Plains Aquifer have 
for decades, actively mapped, monitored and managed those portions of 
the aquifer that exists under their respective borders. The collected 
data continues to be used by the jurisdictional state agencies to 
manage the aquifer on a watershed or other sub-regional basis. Data 
collected to date indicates that water levels of the High Plains 
Aquifer can vary significantly even within a single watershed. If 
management strategies must be made to address localized water levels, 
state agencies or local governing bodies can and do make those 
decisions. The need to make state and local decisions regarding 
groundwater management is an example as to why the federal government 
should not have any jurisdiction over groundwater management, including 
oversight of mapping, modeling or monitoring of the High Plains or any 
other groundwater aquifer. S. 212 would move the federal government one 
step closer to management decisions of state jurisdictional 
groundwater.
    Within the eight-state region of the High Plains Aquifer 4,800 
wells are used annually for observing water levels. A search of the 
Internet produces an overwhelming amount of data that has been 
collected and used by states, with assistance from the USGS, to chart 
and characterize the High Plains Aquifer. One project that is ongoing 
is a comprehensive study being conducted by Texas A&M University, 
Kansas State University and other state institutions. This project is 
being conducted on the High Plains Aquifer to further assist state 
agencies in their management of the aquifer. While this study effort 
utilizes federal funding, it is not a top down, federally driven 
groundwater management program. The legislative criteria in S. 212 
would be duplicative in nature to ongoing state programs and would 
allow the federal government to obtain authority over an area that is 
historically, and should remain, solely state jurisdiction.
    The High Plains Aquifer is an open aquifer system containing some 
3.3 billion acre-feet of water. The average water table thickness is 
300 feet. The overlying land is some of the most fertile and productive 
agricultural land in the United States. Farmers and ranchers have 
utilized surface and groundwater resources through irrigation to 
produce an abundance of crops and products that beneficially add to 
local and state economies and help feed America and the world. While 
agriculture is often pointed to as the reason for water table declines 
in some areas of the High Plains Aquifer, the fact is that agriculture 
and specifically irrigation technology, continues to make American 
agriculture the most efficient groundwater user in the world.
    The American Farm Bureau Federation opposes S. 212 and the attempt 
to impose federal oversight on the characterizing, modeling, monitoring 
of the High Plains Aquifer.
                                 ______
                                 
                                                     March 4, 2003.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, Senate Dirksen 
        Office Building, Washington, DC.
Hon. Jeff Bingaman,
Ranking Minority Member, Senate Dirksen Office Building, Washington, 
        DC.
    Dear Senators Domenici and Bingaman: On behalf of the Western 
States Water Council, consisting of representatives appointed by the 
governors of eighteen states, I am writing to express our support for 
federal authorization of a High Plains Aquifer Hydrogeologic 
Characterization, Mapping, Modeling and Monitoring Program. We 
supported such legislation in the last session (S. 2773). We recognize 
S. 212 has been introduced, which incorporates some changes to S. 2773 
that we endorsed, while making other changes that we can not properly 
address until our meetings later this month. We understand still more 
changes are being considered. We believe any federal legislation must 
support existing state water programs and priorities, and provide the 
maximum flexibility possible to achieve state and federal goals.
    Good decisionmaking must be based on sound science and there is a 
clear need for more information on the extent and nature of the ground 
water resources of the High Plains Aquifer. We believe that states are 
primarily responsible for managing ground water resources. We would 
expect the proposed programs would build on existing cooperative state 
and federal efforts, consistent with state water resources and water 
rights administrative laws and policies. In this regard, most western 
states now require some type of monitoring, measurement, and reporting 
of ground water pumping as part of their administrative processes. We 
do not read past or present proposals as creating any such federal 
requirements, nor does it appear the High Plains states would support 
such federal requirements. We support a federal program for mapping, 
modeling, and monitoring--building towards an integrated hydrogeologic 
characterization of the aquifer--in close cooperation with the High 
Plains states.
    The High Plains states are already deeply involved in accomplishing 
the goals and objectives set forth in S. 212, and have already invested 
significant resources towards this end. High Plains state water 
management agencies are a critical part of any future efforts. Although 
none of the federal funds authorized are specifically earmarked for 
state water management agencies, they are eligible to apply for 
financial awards and we would expect they will receive a share of the 
money proportionate to their ongoing efforts. S. 212 adds a matching 
cost sharing requirement that the Council has not considered, but which 
may be an obstacle to program participation in some states.
    As you know, the Council serves as a forum for western states to 
express their views on water resource issues. A number of our member 
states are using the Council as a vehicle to address their interests in 
protecting the High Plains aquifer. They have formed a working group 
that is meeting regularly in conjunction with our Council meetings to 
discuss issues of mutual concern. Those discussions have revolved 
around the need for conservation of High Plains ground water resources 
and the likely impact of incentive programs enacted as part of the Farm 
Bill. We have also discussed the need for further legislation and 
welcome your Committee's action.
    We look forward to working with the Committee and your staff in the 
future on this bill and other water-related bills.
            Sincerely,
                                               Karl Dreher,
                            Chairman, Western States Water Council.
                                 ______
                                 
                                      Colorado Farm Bureau,
                                  Englewood, CO, February 28, 2003.
Hon. Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
    Dear Senator Campbell: I am writing to express my strong concern 
with legislation introduced by Senator Bingaman, S. 212, the High 
Plains Aquifer Hydrogeologic Characterization, Mapping, Modeling and 
Monitoring Act. I understand a hearing is scheduled for March 6, 2003 
and would like to take this opportunity to inform you of Colorado Farm 
Bureau's opposition.
    Colorado Farm Bureau has long fought the involvement of the federal 
government in our state's water resources. This bill brings the federal 
government to the forefront of Colorado ground water management. I feel 
this is an arena best managed at the state and local level where state 
water compacts can be closely monitored.
    The USGS is already in the middle of a six-year study on the High 
Plains Aquifer. We are not opposed to getting the necessary data on the 
use of aquifers. However, we see this as an attempt to label the 
agricultural use of the High Plains Aquifer as wasteful. The real waste 
would come as a result of further studies on this aquifer by the 
federal government.
    We urge your opposition to this legislation.
            Sincerely,
                                           Alan Foutz, PhD,
                                                         President.

</pre></body></html>
